<html>
<title> - NAVY READINESS POSTURE</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                                     
                         [H.A.S.C. No. 115-91]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT
                          FOR FISCAL YEAR 2019

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES
                        HOUSE OF REPRESENTATIVES
                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION
                               __________

                   SUBCOMMITTEE ON READINESS HEARING

                                   ON

                         NAVY READINESS POSTURE
                               __________

                              HEARING HELD
                             MARCH 20, 2018
                             
                                     
                 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                 
                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
30-561                    WASHINGTON : 2019                  

                                     
  


                       SUBCOMMITTEE ON READINESS

                  JOE WILSON, South Carolina, Chairman

ROB BISHOP, Utah                     MADELEINE Z. BORDALLO, Guam
AUSTIN SCOTT, Georgia                JOE COURTNEY, Connecticut
STEVE RUSSELL, Oklahoma              TULSI GABBARD, Hawaii
MIKE ROGERS, Alabama                 CAROL SHEA-PORTER, New Hampshire
VICKY HARTZLER, Missouri             A. DONALD McEACHIN, Virginia
ELISE M. STEFANIK, New York          SALUD O. CARBAJAL, California
MARTHA McSALLY, Arizona, Vice Chair  ANTHONY G. BROWN, Maryland
SCOTT DesJARLAIS, Tennessee          STEPHANIE N. MURPHY, Florida
TRENT KELLY, Mississippi             RO KHANNA, California
MIKE GALLAGHER, Wisconsin
                Margaret Dean, Professional Staff Member
                Brian Garrett, Professional Staff Member
                          Megan Handal, Clerk



                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Bordallo, Hon. Madeleine Z., a Delegate from Guam, Ranking 
  Member, Subcommittee on Readiness..............................     2
Wilson, Hon. Joe, a Representative from South Carolina, Chairman, 
  Subcommittee on Readiness......................................     1

                               WITNESSES

Lescher, VADM William K., USN, Deputy Chief of Naval Operations, 
  Integration of Capabilities and Resources, Headquarters, U.S. 
  Navy...........................................................     3
Lewis, VADM Andrew L., USN, Deputy Chief of Naval Operations for 
  Operations, Plans and Strategy, Headquarters, U.S. Navy........     5
McCollum, VADM Luke M., USN, Chief of Navy Reserve, Commander, 
  Navy Reserve Force, Headquarters, U.S. Navy....................     6



                                APPENDIX

Prepared Statements:

    McCollum, VADM Luke M., joint with VADM William K. Lescher 
      and VADM Andrew L. Lewis...................................    22
    Wilson, Hon. Joe.............................................    21

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Brown....................................................    40
    Mr. Wilson...................................................    39


 
                       NAVY READINESS POSTURE

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                                 Subcommittee on Readiness,
                           Washington, DC, Tuesday, March 20, 2018.
    The subcommittee met, pursuant to call, at 3:41 p.m., in 
Room 2118, Rayburn House Office Building, Hon. Joe Wilson 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. JOE WILSON, A REPRESENTATIVE FROM 
      SOUTH CAROLINA, CHAIRMAN, SUBCOMMITTEE ON READINESS

    Mr. Wilson. Good afternoon. The Readiness Subcommittee of 
the House Armed Services Committee will come to order. I 
welcome each of you to this hearing on the posture of the U.S. 
Navy.
    Today, the subcommittee will hear from the Chief of the 
Navy Reserve, the Deputy Chief of Naval Operations for 
Integration of Capabilities and Resources, and the Deputy Chief 
of Naval Operations for Operations, Plans and Strategy on how 
well the Navy is postured to meet the needs of this Nation, 
both today and in the future.
    Over the past 6 months, this subcommittee has held a series 
of hearings to examine shortfalls, gaps, and critical 
challenges facing the Navy's readiness recovery. In November, 
Vice Admiral Shoemaker described the ongoing challenges to 
naval aviation. In December, Vice Admiral Lewis described the 
shortfalls in amphibious warfare. And through a series of 
hearings and briefings, the Secretary of the Navy, Chief of 
Naval Operations, and Vice Chief of Naval Operations helped 
this subcommittee understand the underlying factors that led to 
the tragedies aboard the USS Fitzgerald and the USS John S. 
McCain.
    Today, the Readiness Subcommittee meets to hear how this 
year's President's budget [PB] intends to address remaining 
readiness gaps. This subcommittee will have a separate future 
opportunity to discuss the progress of the recommendation from 
the Navy's Strategic Readiness Review and Comprehensive Review 
recommendations.
    Across the surface, expeditionary, and aviation forces, the 
Navy continues to struggle to maintain the material readiness 
necessary to train and fight. Limited spare parts, backlog in 
depots, and insufficient manning both afloat and ashore impede 
the Navy's ability to train to meet the demands of a major 
conflict. We welcome the witnesses' perspective on these issues 
and any recommendations you may have.
    Before I introduce the witnesses, I am grateful to turn to 
the distinguished ranking member of the Readiness Subcommittee, 
the gentlelady from the territory of Guam, Congresswoman 
Madeleine Bordallo, for her opening statements.
    [The prepared statement of Mr. Wilson can be found in the 
Appendix on page 21.]

STATEMENT OF HON. MADELEINE Z. BORDALLO, A DELEGATE FROM GUAM, 
           RANKING MEMBER, SUBCOMMITTEE ON READINESS

    Ms. Bordallo. Thank you very much, Mr. Chairman, and thank 
you to our witnesses for being here today.
    Last year was a very challenging year for the Navy. And I 
am hopeful that 2018 will be much better in terms of improving 
your readiness posture. While we will have an opportunity at a 
future hearing to discuss the status of implementing the 
recommendations from the Navy's Strategic Readiness Review and 
Comprehensive Review, today the Readiness Subcommittee is 
meeting to hear details of the Navy's fiscal year 2019 budget 
request.
    So I look forward to hearing from you on the current 
readiness of the Navy's Active and Reserve Components, the 
threat and operational challenges that you face, your plans for 
addressing these challenges, and what this subcommittee can do 
to support your efforts.
    At the conclusion of this hearing, I hope to better 
understand how the fiscal year 2019 budget request will improve 
the Navy's readiness, how you are prioritizing the 
modernization and the maintenance needs of the fleet. And as we 
begin to review the budget request, I am concerned about 
whether this budget appropriately balances near-term readiness 
recovery through investments in the operation and maintenance 
accounts with long-term readiness through procurement and 
modernization.
    In terms of operation and maintenance spending, I note that 
the fiscal year 2019 request reflects only a 1.5 percent 
increase over the fiscal year 2018 NDAA [National Defense 
Authorization Act] levels, while seeking a significantly larger 
increase in procurement accounts. Specifically, I note that the 
budget materials reflect the fact that the request would only 
resource 92 percent of the ship and aircraft depot maintenance 
requirements at funding levels below what was authorized in the 
fiscal year 2018 NDAA.
    Gentlemen, we have heard about the readiness challenges the 
Navy is facing through various committee hearings and 
briefings. We have heard about the negative impact of 
continuing resolutions, as well as the shortfalls that exist in 
spare parts, reduced training hours, and critical personnel 
shortages. In light of the budget deal that was reached earlier 
this year, I am concerned that the fiscal year 2019 budget 
request fails to properly resource the accounts that help 
address these shortfalls and enable near-term readiness 
recovery.
    This committee wants to support your efforts to rebuild 
readiness and recovery from the budget uncertainty caused by 
sequestration and continuing resolutions. And we hope that 
today's hearing helps provide more details on the Navy's near-
term and long-term readiness recovery plans as we begin our 
work on the fiscal year 2019 NDAA.
    So, again, welcome, gentlemen, and I look forward to your 
testimony. Mr. Chairman, I yield back.
    Mr. Wilson. Thank you, Congresswoman Bordallo. I am pleased 
to recognize our witnesses today. I want to thank them for 
taking the time to be with us. We have Vice Admiral Luke M. 
McCollum, Chief of Navy Reserve, Commander, Navy Reserve Force. 
And we are really grateful that your wife could join us today. 
And indeed, we all appreciate military families and the joint 
opportunities and sacrifices that military families have. So 
thank you for being with us today.
    We have Vice Admiral William ``Bill'' K. Lescher, the 
Deputy Chief of Naval Operations, Integration of Capabilities 
and Resources, and Vice Admiral Andrew L. ``Woody'' Lewis, the 
Deputy Chief of Naval Operations for Operations, Plans and 
Strategy.
    Before we begin, I would like to remind our witnesses that 
your full written statements will be submitted for the record. 
We will ask that you summarize your comments to 5 minutes or 
less. And Vice Admiral Lescher, we will begin with you and look 
forward to your opening statement.

  STATEMENT OF VADM WILLIAM K. LESCHER, USN, DEPUTY CHIEF OF 
 NAVAL OPERATIONS, INTEGRATION OF CAPABILITIES AND RESOURCES, 
                    HEADQUARTERS, U.S. NAVY

    Admiral Lescher. Thank you, Mr. Chairman. Mr. Chairman and 
Ranking Member Bordallo, distinguished members of the Readiness 
Subcommittee, thank you for the opportunity to join you today 
to talk about this critical issue of Navy readiness.
    As we start today, I do want to add our deepest condolences 
to the families and loved ones of the two outstanding naval 
aviators that we lost last week from the Blacklions of VFA-213 
[Strike Fighter Squadron 213]. Their loss is a reminder of the 
tremendous sacrifices our men and women in uniform make in 
service to the Nation. They and their families are in our 
thoughts and prayers as we do business today.
    Today we look forward to discussing with you the critically 
important topic of Navy readiness. And I want to start by 
thanking the subcommittee for your leadership in enacting the 
2017 request for additional appropriations, which addressed key 
readiness needs last year. We are also appreciative of the 
legislation approving 2018 and 2019 defense funding levels that 
when enacted will do so much to accelerate readiness recovery 
and strengthen our path to increase naval power.
    This 2019 budget request strongly aligns with the new 
National Defense Strategy, which highlights a return to great 
power competition and directs increased naval power and 
response. This budget also strongly aligns with the Secretary 
of Defense's three-phase budget campaign plan, which we have 
talked about in prior years' testimony, as well. That plan, as 
you recall, prioritized improving warfighting and readiness in 
2017, addressing pressing shortfalls in the 2018 budget 
request, while continuing to rebuild readiness, and growing 
capacity and improving lethality in 2019.
    As this subcommittee knows very well, our current readiness 
debt has accrued over a decade and a half of wartime 
operational tempo, Budget Control Act fiscal constraints, and 9 
consecutive years of continuing resolutions, and we all 
understand it is going to take time, resources, and budget 
stability to recover that readiness.
    Today, our routinely deployed and next to deploy forces 
remain operationally ready to respond to any challenge, and we 
are working very hard to restore our ability to fully surge 
forces in a crisis. This work requires enactment of a fiscal 
year 2018 budget now, 6 months into the fiscal year. Each 
additional delay in enacting this 2018 budget postpones our 
readiness recovery.
    The 2019 budget will build on that enacted 2018 funding to 
improve the operational availability of today's ships and 
aircraft and to modernize them with the advanced capabilities 
that are key to countering the threat. The 2019 budget funds 
our four major readiness accounts to 100 percent of the 
requirement or their maximum executable levels, which I would 
be very happy to discuss in further testimony as we talk 
further today. That is the ship operations account, the flying 
hours account, and the aviation and ship depot maintenance 
accounts.
    This budget also increases funding for the readiness and 
enabling account, such as aviation logistics, depot support, 
and spares. A key surge capacity enabler in this budget is the 
funding to increase maintenance throughput in our shipyards and 
our depots, by continuing to hire and train new workers, 
recapitalize equipment, modernize information technology 
infrastructure, and better balance work between public and 
private shipyards. And while funding for our facility 
sustainment, restoration, and modernization [FSRM] account is 
still below that required to reduce the backlog, we were able 
to increase investment in FSRM this year and doubled the 
military construction budget from 2018 to fund key projects and 
increased lethality and restore warfighting readiness.
    Collectively, these investments are focused on driving 
readiness outputs, moving the readiness needle. The Navy is 
laser-focused on executing this funding responsibly, closely 
scrutinizing the spending while driving performance to plan. We 
are fully embracing the department-wide audit, so we can say 
with confidence to the American taxpayer that their hard-earned 
money is being spent as carefully as if it were their own. So I 
very much appreciate this subcommittee's role, the leadership 
role in sustaining focus on this readiness recovery imperative, 
and we look forward to working together with the committee to 
build an increasingly ready and lethal Navy for our enemies, 
supportive Navy for our allies, and a safe Navy for our 
sailors. Thank you, sir.
    [The joint prepared statement of Admiral Lescher, Admiral 
Lewis, and Admiral McCollum can be found in the Appendix on 
page 22.]
    Mr. Wilson. Thank you very much, Vice Admiral Lescher. We 
now proceed to Vice Admiral Lewis.

 STATEMENT OF VADM ANDREW L. LEWIS, USN, DEPUTY CHIEF OF NAVAL 
 OPERATIONS FOR OPERATIONS, PLANS AND STRATEGY, HEADQUARTERS, 
                           U.S. NAVY

    Admiral Lewis. Chairman Wilson, Ranking Member Bordallo, 
and distinguished members of the Readiness Subcommittee, thank 
you for the opportunity to testify today on the operational 
aspects of Navy readiness.
    To start, I join with my colleague in thanking you for your 
efforts to pass a fiscal year 2018 appropriation and the 
support you provided in the fiscal year 2017 request for 
additional appropriations. These resources directly support the 
operational readiness of the fleet that you and the Nation 
expect.
    The Navy generates readiness in order to deploy forces 
across the globe in support of the National Security Strategy 
and the National Defense Strategy. For the large majority of 
our forces, this means executing specified maintenance and 
training regimens in the United States prior to earning a 
certification to deploy at the Secretary of Defense's direction 
in support of the National Defense Strategy. When not deployed, 
Navy forces maintain a surge readiness to respond to 
contingencies.
    Taking place within a 36-month cycle, this force generation 
model provides predictability and stability for sailors and 
their families, the maintenance community and industry, and 
also allows ships and squadrons to focus on building readiness 
without undue operational requirements. It also provides 
transparency to the Joint Staff and the combatant commanders on 
the number of forces the Navy can provide to the joint force on 
a sustainable basis. It has been very successful in meeting 
those objectives.
    A small segment of our forces, specifically the forward 
deployed naval forces, homeported in Japan, Spain, and Bahrain, 
have used a different force generation model. Intended to 
maximize the operational availability and crisis response 
capability of these forward deployed forces, this model used a 
continuous certification concept which relied upon the periodic 
completion of unit-level training events to maintain 
proficiency and readiness across all mission areas.
    In the aftermath of the tragic USS Fitzgerald and USS John 
McCain collisions, however, it became clear that due to 
operational pressures the Navy in the Western Pacific was 
sacrificing training opportunities for forward deployed naval 
force ships in favor of meeting operational tasking. The 
excessive use of waivers and mitigation plans to maintain 
certifications, combined with the obvious operational 
inadequacies demonstrated by the collisions and other incidents 
clearly showed that Japan-based ships were not meeting our 
readiness expectations.
    The Navy is taking decisive action to fix this. And as 
previously mentioned, both the Secretary of the Navy's directed 
Strategic Readiness Review [SRR] and the Chief of Naval 
Operations directed Comprehensive Review [CR] of Surface Force 
Readiness made various recommendations to improve command and 
control and force generation practices for the forward deployed 
naval force.
    We have begun to implement these recommendations. 
Specifically, we have eliminated all waivers and mitigation 
plans, conducted fleetwide readiness assessments, established a 
command in Japan solely focused on readiness, and we are 
applying our standard force generation model to forward 
deployed naval force ships. As you would expect, these actions 
have reduced the operational availability of our Japan-based 
ships in the short run as they undergo a rigorous 
recertification process.
    I expect to be past this initial--I expect that we will be 
past this initial bow wave by late spring this year. Full 
implementation of the new processes will take some time, but 
the end result will be a more ready, more capable, and more 
lethal Navy.
    Finally, please allow me to emphasize what you just heard 
from Admiral Lescher. Fully funding our readiness accounts is 
the foundation of operational readiness. Without properly 
manned, trained, equipped, and maintained forces, we will 
always be incurring a readiness debt that will be more 
expensive to pay off in the long run. In this current era of 
renewed great power competition, we cannot afford any 
degradations in readiness.
    On behalf of all of our sailors, civilians, and our 
families, I would like to thank you, the Congress and this 
committee, for your support. I also look forward to working 
with you to ensure the operational readiness of the Navy we 
have now and in the future the Navy the Nation needs. I look 
forward to your questions. Thank you.
    Mr. Wilson. Thank you very much, Vice Admiral Lewis. We now 
proceed to Vice Admiral McCollum.

STATEMENT OF VADM LUKE M. McCOLLUM, USN, CHIEF OF NAVY RESERVE, 
     COMMANDER, NAVY RESERVE FORCE, HEADQUARTERS, U.S. NAVY

    Admiral McCollum. Good afternoon, Mr. Chairman, Ranking 
Member Bordallo, and distinguished members of the subcommittee. 
I would like to echo my thanks in your leadership in supporting 
readiness being restored to the Navy. It is my privilege to 
testify today in the readiness of the Navy Reserve.
    As part of the total force, the Navy Reserve has the 
responsibility to provide strategic depth and operational 
capability to our Active Component. Combatant commanders depend 
on the cost-effective and unique capabilities of the Navy 
Reserve and what it brings to the fight. Therefore, the Navy 
Reserve must be combat-ready in order to deliver operational 
excellence in support of a more lethal and capable total force. 
Your Navy Reserve has been fully integrated and engaged over 
the past 16 years.
    Around the globe, in serving as a total force multiplier, 
since
9/11 alone, Navy reservists have mobilized over 81,000 times in 
support of the Navy and joint force. The ability to provide 
properly manned, trained, and equipped forces capable to 
sustain operations where and when needed requires 
predictability and funding. As we have mentioned in previous 
occasions, continuing resolutions and threats of shutdowns 
affect Reserve Component service members a little bit more 
uniquely than the Active side. In particular, that they train 
on weekends, and as an example, Navy Reserve medical readiness 
in itself dropped 8 percent as a direct result of the canceled 
drill weekend in January when the government went into 
shutdown.
    Government shutdowns consume resources, they affect morale, 
and prevent us from focus on the warfighting lethality. 
Tomorrow will be the beginning of a big travel day for a drill 
weekend this weekend, and there is already obviously some 
anxiety in the force. Consistent stable funding is the most 
important step in our readiness recovery. And PB 2019 focuses 
on sustaining that recovery.
    Navy Reserve force structure provides integration options 
across the globe, ranging from the mobilization of an entire 
unit to go to combat, to an individual sailor in support of a 
single exercise. Our ability to surge and respond on short 
notice where and when needed is a critical piece that enhances 
the Navy's capability and lethality.
    To maintain this lethality, investment in aging Reserve 
Component equipment is critical to minimizing the 
interoperability gap between Active and Reserve Components. 
Should this gap widen further, it will be challenging to 
provide the required support to the Active Component.
    Even though the challenges do exist in today's environment, 
I am proud of our sailors' dedication, their resilience, their 
morale, and their professionalism. The sacrifices made by 
sailors, employers, and families is immense in supporting the 
Navy our Nation needs. Thank you for the opportunity to appear 
before you today. I sincerely appreciate the support you have 
given to date, and I look forward to taking your questions.
    Mr. Wilson. And thank you very much, Admiral McCollum. We 
now begin with the question by each of the subcommittee 
members, and we are fortunate that Margaret Dean, who is a very 
dedicated Navy reservist herself, will be keeping the time. And 
so she is very punctual, we already know.
    So we will begin. Admiral McCollum, sadly we understand 
that most of the Navy Reserve's C-130 fleet remain grounded 
after the crash of the KC-130T in Leflore County, Mississippi. 
Amongst the Navy's unfunded priorities list is a request for 
NP-2000 propeller kit. How would funding this propeller restore 
readiness of Navy Reserve aviation? What is the impact if this 
remains unfunded?
    Admiral McCollum. Mr. Chairman, thank you for that 
question. First of all, if we think about what the Navy Reserve 
brings to the logistics side of the Navy, Navy Reserve provides 
100 percent of the inter-theater lift for the Navy. Said 
another way, boxes, people, crews, parts, have to be sourced 
and delivered around the globe.
    The capability that resides in a Navy Reserve that delivers 
this is in the C-40 Alpha and the C-130 Tango. Those two 
aircraft provide that capability. Right now, we have 42 percent 
degradation in that capability. And that is related to the 
grounding of the C-130 Tangos.
    The recovery aspect of this allows us in the form of this 
ask of the NP-2000 propeller system allows us to replace these 
propellers and restore readiness to these aircraft that would 
further allow us to continue our mission in supporting the 
fleet. So it is highly important that we upgrade our 
capability.
    Mr. Wilson. And additionally, what has been the impact on 
your maintenance crews and then pilot hours? It just seems like 
it would be really catastrophic.
    Admiral McCollum. The demand signal for Navy Reserve in 
this capacity is very high. When what we have been able to do 
is--while we are focused with these down aircraft, we have 
taken advantage of the flat hours and the accrue--because the 
mission continues. Our C-40s are operating at 100 percent 
capacity and we have vectored a lot of those mission sets to 
that location.
    With the proposal to--and the ask to replace with this 
propeller system that it gives us the ability to get on pace 
and the timeline to restore on a steady, methodical way, and 
communicating that progress with our aircrew gives positive 
support.
    Mr. Wilson. And the maintenance personnel, are they being 
utilized or are they----
    Admiral McCollum. Absolutely. There is no shortage of need 
for aviation maintainers. And the one thing about the Navy 
Reserve is the--we are integrated with the Active Component. It 
does depend on which piece of the maintenance that resides, but 
we are an integrated force, and often you can walk into a 
squadron and see both Active and Reserve working together, and 
sometimes the demand signal is higher in one or the other. And 
we interchange, provided that the skill set and certifications 
match.
    Mr. Wilson. Well, I am grateful to hear that, because the 
expertise of these individuals will be very difficult to 
replace, so best wishes.
    Admiral Lescher, this year's President's budget increases 
procurement by 10 percent over last year's National Defense 
Authorization Act levels, while sustainment showed just over a 
1 percent increase. It is known that the sustainment of new 
systems is up to 70 percent of the lifetime costs. How is the 
budget request ensuring that readiness recovery remains on 
track, while modernizing the force?
    Admiral Lescher. Yes, sir. Thank you for that question. The 
answer to that question is really embodied in this context of 
this 3-year campaign that the SECDEF [Secretary of Defense] put 
out in January 2017. And I alluded to that in the opening 
comments.
    So very much the highest priority, the initial priority of 
the Secretary of Defense was to restore readiness. And you saw 
that in the fiscal year 2017 request for additional 
appropriations. In the 2018 bill, which the Congress has right 
now and we hope to see enacted by the 23rd of this week, there 
is growth above that level that really is in consonance with 
this concept of 2018 further rebuilding their readiness.
    So in 2017, for example, we executed just in their four 
major readiness accounts that you highlighted and we talked 
about $1 billion above the 2016 level. In the 2018 request, 
there is $3 billion in those four readiness accounts above that 
2017 level. And then to your point, the 2019 level carries that 
forward.
    If you look even more broadly at wholeness of readiness to 
include personnel, equipment, supply, training, ordnance, 
networks and installation, that growth from 2017 to 2018 is 
about $7.5 billion, and then from 2018 to 2019, it is about 
another just under $4 billion.
    So what has gone on is the department has very much 
emphasized readiness recovery in the 2017 and the 2018 bills, 
and now in the 2019 we are holding that level and driving that 
level, while now starting to grow capacity and lethality. Part 
of what is also driving that choice of how to balance our 
portfolio is what this subcommittee understands, I know better 
than most, that it is not just resources, it is time. It takes 
time, particularly in our industrial operations and our 
shipyards and our fleet readiness centers, the aviation depots, 
to grow the naval force now to execute that higher level of 
capacity.
    And so you have really seen an analysis of the phasing, but 
to be very clear, as we talked about in the opening comment, 
the fact that we are 6 months into the fiscal year 2018 year 
and still don't have that additional funding is part of what is 
constraining our ability to recover readiness and go forward. 
We are executing the first half of this year at fiscal year 
2017 funding levels. So all that goodness, all that accelerated 
readiness recovery that is in this fiscal year 2018 bill hasn't 
started yet.
    Mr. Wilson. Well, thank you for addressing that. And we now 
proceed to Congresswoman Bordallo of the territory of Guam.
    Ms. Bordallo. Thank you, Mr. Chairman. Vice Admiral 
Lescher, 2017 was challenging for the Navy, particularly with 
regard to the maintenance of the fleet. Several GAO [Government 
Accountability Office] reports discussed the extensive 
maintenance backlog for surface ships and submarines. The 
Navy's own Strategic Readiness Review highlighted that the 
constrained ship repair industrial base capacity is inadequate 
to meet the current demand.
    Yet when asked during a HASC [House Armed Services 
Committee] hearing if the current depot-level ship repair 
capability was sufficient in the Pacific, the response 
contradicted the SRR findings. So I continue to be confused by 
the Navy's mixed message. With 60 percent of our naval fleet 
operating in the Pacific, is the ship repair capability 
sufficient or insufficient to meet the current demand?
    Admiral Lescher. Yes, ma'am, thank you. So your comments 
are exactly on point in terms of the ship depot maintenance 
backlog and the need to assertively get after growing public 
shipyard nuclear maintenance capacity. As part of our response 
to that, Vice Admiral Tom Moore, the commander of Naval Sea 
Systems Command [NAVSEA], authored a report that was conveyed 
to the committees about shipyard optimization.
    It talks about a 20-year effort to grow the public shipyard 
capacity to get after this backlog we are seeing in nuclear 
maintenance. More broadly, in terms of the Western Pacific, I 
know Secretary Geurts testified earlier about the Navy is 
committed to giving a fresh look at this analysis and is 
complying with the NDAA reports, first of all, to do reports on 
the Western Pacific ship depot maintenance writ large, the 
requirements for capacity and capability, and then to also 
perform a business case analysis on courses of action to 
address and grow that.
    So it is work that is ongoing and that we will fully, 
obviously, share----
    Ms. Bordallo. So----
    Mr. Wilson. And, Admiral, could you adjust, everyone, their 
microphone a bit better for the court reporter? Thank you very 
much. Excuse me, mademoiselle.
    Ms. Bordallo. That took 1 minute of my time, Mr. Chairman.
    [Laughter.]
    Mr. Wilson. That was 5 seconds. I already measured it. 
Thank you.
    Ms. Bordallo. Well, Admiral, then would you say you are on 
the way to improving capabilities? Is that what you are----
    Admiral Lescher. We are. So, for example, in the public 
shipyards, in the labor accounts, we are growing to 36,100.
    Ms. Bordallo. Very good, okay.
    Admiral Lescher. And capital investment, et cetera, yes.
    Ms. Bordallo. I have a second question for any of you here. 
After years of concerns regarding readiness shortfalls and the 
impacts of sequestration, I am concerned that the fiscal year 
2019 budget request may not appropriately balance long-term 
readiness recovery through modernization with near-term efforts 
through sustainment and maintenance. With regard to the fiscal 
year 2019 budget, how will the request support near-term 
readiness recovery? And are there specific areas in the O&M 
[operations and maintenance] accounts, such as ship or aviation 
depot maintenance, fleet air training, FSRM, or others, where 
you think additional resources could help with the readiness 
recovery efforts? Whichever one----
    Admiral Lescher. Yes, ma'am, I will take a stab at that. 
Thank you. I think the department remains very focused on near-
term readiness recovery. At the same time, you also see, to the 
point you made in terms of procurement in fiscal year 2019 now 
starting to grow to a larger, more lethal Navy, as well, but 
the investments in near-term readiness recovery that I 
highlighted earlier in our big four readiness accounts, that is 
essentially at maximum executable levels that we--are based on 
absolute physical capacity constraints to execute.
    Even in the enabling accounts, aviation logistics, aviation 
spares, depot support, they are at historic highs all in the 
high 90s or 100 percent. So a very strong focus on accelerating 
readiness recovery, but it is going to take time. It is going 
to take time to--in these major industrial operations, the 
public shipyards, the aviation depots, as we are hiring 
engineers, we are hiring artisans, now we have to train these 
new hires to get productive work out of them. And there is a 
big focus on that training program. We are making capital 
investment improvements, as well.
    So I would say a strong focus from a portfolio balance 
perspective, heavy allocation of resources on near-term 
readiness, it is going to take time to move that needle, to 
move that output readiness metric.
    Ms. Bordallo. Thank you. Thank you, Admiral. And I yield 
back my remaining time, Mr. Chairman.
    Mr. Wilson. Thank you, Congresswoman. We appreciate your 
service very much. And we now proceed to Congressman Austin 
Scott of Georgia.
    Mr. Scott. [Inaudible.] I apologize, 11 special capability 
ships. Admiral Lewis, that is pretty much for you, I believe. 
Although TRANSCOM [U.S. Transportation Command] has operational 
control of the ships, the Navy owns the ships. These ships are 
required to meet the heavy and sustained logistical demands in 
any major conflict, and in peacetime, these ships--especially 
those like the Mercy and the Comfort--are essential to meeting 
humanitarian assistance and disaster relief efforts of both our 
Nation and our allies, and even at times people that are our 
adversaries.
    If these ships are not funded, how will the Navy's warships 
be refueled? How will they be rearmed? How will they be 
resupplied with food? And how will we be able to support the 
casualties during a major conflict?
    Admiral Lewis. I am actually going to yield this to Admiral 
Lescher. I think he is better suited to answer that question.
    Mr. Scott. All right.
    Admiral Lescher. Yes, sir. Let me take a stab at that, in 
terms of articulating how the department is addressing that 
urgent need that you highlighted. So 75 of these ships total, 
of the sealift ships, 10 of them special capabilities you 
highlight, and the department has articulated a three-phase 
approach to address that, starting with service life 
extensions.
    So in this budget, this fiscal year 2019 budget, there is 
funding across the 5-year program to do service life extensions 
on 21 of those ships. The second element of addressing that 
need is to--with the authorities we received from the Congress, 
which we are very much appreciative of, to buy used ships, so 
starting in fiscal year 2020 and fiscal year 2021 we will buy 
one each year of a used ship. And then we are--looking at 
recapitalizing those ships, as well.
    So in fiscal year 2019 and 2020, there is R&D [research and 
development] funding for a common hull replacement for those 
ships that will do the design work that will lead us to do a 
recapitalization of that fleet, as well. So across service life 
extension, procuring used ships as a bridge, and then building 
new ships with the R&D we are doing on a common hull 
replacement, that is how the department's attacking that 
requirement.
    Mr. Scott. So one of the things that I am concerned about 
is, you know, just as we talked about this week, we had a 
budget deal. Now we are having difficulty getting to the final 
language in an appropriations measure.
    We had, I think, hoped to be done by last week. We are 
still going this year. And so you have got a budget number for 
2018 and 2019. The dispute right now in the appropriation 
measures is not over the funding of the military. But as you 
look out to 2020, 2021, 2022, what do you see as far as the 
budget for the Navy? What are you making plans for?
    Admiral Lescher. So, sir, the Secretary of Defense has 
been--provided some strong guidance on this. Secretary of the 
Navy, as well, has testified to the fact that clearly as we 
grow to the larger, more lethal Navy, additional resources will 
be required, and we are going to look to develop those through 
reform. We are bringing a strong effort and across the board on 
not only executing new funds, but executing them in a more 
productive, a more effective, a more efficient way, with strong 
accountability.
    In this PB 2019 budget, for example, in fiscal year 2019, 
the Navy has $1 billion of reform from prior years that were 
generated and was actually allocated to buy readiness, to buy 
platforms. Across the 5-year program, Navy has about $4 billion 
of reform. So we are looking strongly at that. You know, the 
SECNAV [Secretary of the Navy], DEPSECDEF [Deputy Secretary of 
Defense] both bring a very strong view on performance to plan 
that is helping us get after that. So there is work to be done.
    Clearly, I would also highlight in the context of what you 
say, Columbia recapitalization outside the FYDP [Future Years 
Defense Program] is something that is going to require 
substantially higher levels of Ship Construction, Navy funding. 
So it is work for us to get after to talk about with the 
department, but through a combination of reform and other 
relief to get after that.
    Mr. Scott. I am glad to hear that. And I think it would be 
wise for--and I have heard General Mattis say the same thing--
give us the 715 for 2019 and we will--the additions for 2020 
and 2021, into the future, we will find the reforms to help pay 
for that. And I think that that is wise advice to those of you 
in those positions. I think it is probably unlikely that you 
see additional increases in 2019, 2020 and 2021.
    And with that, I yield the remainder of my time.
    Mr. Wilson. Thank you very much, Congressman Scott. We now 
proceed to Congressman Joe Courtney of Connecticut.
    Mr. Courtney. Thank you, Mr. Chairman, and thank you to the 
witnesses for your testimony here today.
    I would like to follow up Ms. Bordallo's questions 
regarding the ship maintenance challenge, which is a big one 
for readiness, obviously. First of all, you know, Admiral 
Lescher, I think there is unanimous support on the committee 
to, you know, go back and really update and modernize our 
public shipyards. You know, clearly, I think it is like the 
1900s or it is since then--a lot of the work has been done 
there. But that is going to take some time. I mean, by I think 
your own testimony was about 20 years' process that Admiral 
Moore is proposing.
    You know, in the meantime, you know, we have got a 
situation right now where between carriers and SSBNs [ballistic 
missile submarines], I mean, they kind of are just using up all 
the bandwidth at the public yards. And the attack subs have 
really been the poor cousins who--Boise and the Albany are, you 
know, the sort of poster childs for delays. But there is more 
than that, in terms of--the Connecticut took twice as long 
through its repair availability as was original seen. At the 
same time, we have combatant commanders who are testifying 
before our committee that they can't meet even half the 
requirements that they have out there.
    So we just had a hearing with Assistant Secretary Geurts 
and Admiral Jabaley, again, talking about some of the workforce 
issues as we sort of ramp up on Columbia and Virginia in the 
private yards, where there certainly are some industrial 
capacity for helping with the repair availabilities. Admiral 
McCoy, when he was the head of NAVSEA a number of years ago, 
you know, always talked about sort of the one shipyard 
mentality, which is that, you know, he really didn't make a 
distinction necessarily between public and private yards.
    If the work was there, you know, we want to keep metal 
tradesmen and welders and electricians, you know, from sort of 
drifting off into other opportunities. So I guess, you know, in 
terms of looking at the short-term challenge, particularly for 
the SSN [attack submarine] fleet, I mean, what is your sort of 
take on the one shipyard mentality as a solution, which, again, 
is going to actually help us, you know, hit those production 
targets that we need to hit?
    Admiral Lescher. Yes, exactly. And I think you see that 
essentially we have embraced that, as you highlighted with the 
SSNs that are in private shipyards right now. So, as you know, 
we have three of them already in work, between HII [Huntington 
Ingalls Industries] and Electric Boat, and a fourth, the Boise 
scheduled to start in fiscal year 2019.
    So--and that is absolute good behavior and good practice 
for all the reasons you cited. You know, I would say before we 
understood that well, you would see a behavior of us loading 
our public shipyards beyond their capacity. And so that is what 
led to across the board slowing down all the availabilities, 
loss of critical chain discipline, and so we recognize--and, 
really, Boise, I would say, was a classic example of--in the 
execution year the leadership said, hey, let's recognize we 
simply don't have the capacity to execute that. And then 
let's--essentially with the concept you described--look to push 
that workload, that availability--that specific availability to 
a private shipyard.
    So I think that is proper practice, but I also think that 
we want to fully load our public shipyards, after making all 
those investments. I know Naval Reactors in particular is 
looking at the issue, as we lead turn going into Columbia 
procurement, to make sure the contractors are able to have the 
workforce trained and ready to execute that. So I think 
thoughtful analysis is being done on that, and then the broader 
question, I think the proof is really in our execution, where 
we are subscribing to that concept.
    Mr. Courtney. No, and I think you are right. I mean, once 
that production really hits in around 2020, 2021, I mean, there 
is going to be a wall of production work that is going to make 
repair availabilities probably pretty hard to sort of squeeze 
in there. On the other hand, the public yards are going to have 
this new service life extension program, you know, for the subs 
with the--you know, upgrading the reactors.
    So I think basically you are in a position, along with 
Admiral Moore, of trying to be the air traffic controller to 
try to make sure, you know, this work sort of all sort of fits 
in, and the combatant commanders get with----
    Admiral Lescher. So that will be capacity--you know, 
analysis of capacity at all those locations and just best 
practices, driving discipline into our process, but really an 
honesty, as well, in terms of where the capacity is and then 
allocating the workload to that capacity.
    Mr. Courtney. Great. And one last question for Admiral 
McCollum. Again, Mr. Wilson asked about the Navy C-130s. And 
again, the new propellers--you mentioned, again, that was not 
in the 2019 budget. Assuming, you know, we were able through 
our subcommittee and the appropriators [to] find the resources, 
I mean, would that accelerate the process of getting these 
plans back up in the air?
    Admiral McCollum. Well, certainly, because it would instill 
confidence in our strategy, in our planning assumptions, 
absolutely. Right now, we are estimating 12 to 18 months, and 
the fleet needs it sooner.
    Mr. Courtney. Great. And so the propellers, though--I mean, 
as a process, would be able to be installed quicker than the 
sanding down and the--you know, the refurbishment of the old 
ones? Is that the----
    Admiral McCollum. We would make progress on that timeline. 
It does--it is a precision exercise to do that, as you just 
articulated. But it would definitely help.
    Mr. Courtney. Great. Thank you. Just wanted to get that on 
the record. Thank you, Mr. Chairman, for a few extra seconds.
    Mr. Wilson. Here, here. And thank you, Congressman 
Courtney. We now proceed to Congressman Ro Khanna of 
California.
    Mr. Khanna. Thank you, Mr. Chairman. Thank you for your 
service to our country.
    I just have one question. You mentioned that you would like 
to bring up the Navy's structural force from 308 ships to 355 
ships from 2014 to 2016. And I was curious what the reasons for 
the additional ships are, what they will be used for, and how 
they serve our national interest.
    Admiral Lescher. Yes, sir, thank you. I will take a stab at 
that. The foundational analysis for the 355 ships was a force 
structure assessment that the department did in 2016, so the 
force structure assessment looked at the combatant commander 
command to execute the strategy and then, based on that, 
integrated what that would require.
    I don't recall what the initial number was. It was 
substantially north of 355. And then the department accepted 
risk to that execution, said we are going to allocate risk in 
certain theaters that lessen the requirement and come to a 
fiscally informed moderate risk force of 355. Beyond that force 
structure assessment, the Congress directed the department to 
execute future fleet architecture studies. So MITRE 
Corporation, Center for Strategy--CSBA, Center for Strategic 
and Budgetary [Assessments], and an internal Navy team, each 
did an independent look, also in the context, looking forward 
of the security environment going forward.
    And each of those approaches also showed the need for a 
substantially larger Navy, each with a different number, but 
substantially larger than 308. So that is the context, 
strategically informed, execute the strategy, execute the 
combatant commanders' requirements to set their theater and 
execute their OPLANs [operation plans] is what drove that 
number.
    Mr. Khanna. Thank you, Mr. Chairman.
    Mr. Wilson. Thank you very much. We now--our concluding 
person participating, somebody we know and love, Congresswoman 
Elise Stefanik of New York.
    Ms. Stefanik. Thank you, Chairman Wilson. A traditional 
strength of the Reserve force has been the ability to leverage 
civilian skills which strengthen subject matter expertise 
across the naval enterprise. And in May 2016 during a joint 
hearing with the Committee on Seapower and Projection Forces 
and this Subcommittee on Readiness, the commanding officer of 
Naval Construction Group Two testified that only 30 percent of 
today's Reserve force enters with equivalent civilian 
experience compared to historically over 70 percent.
    How are you addressing these gaps in training and subject 
matter expertise in our Reserve sailors?
    Admiral McCollum. Congresswoman, thank you for that 
question. I will tell you, not a day goes by that I don't get a 
request of a unique civilian skill set to serve our Navy, the 
full spectrum, the skill sets you just outlined, as well as 
things like additive manufacturing, data science, artificial 
intelligence. This is why I am so proud to lead the Reserve 
force with their unique civilian skills that they do.
    I am in a close partnership with the Chief of Navy 
Personnel, and we continually talk about permeability, meaning 
said another way, the ability for somebody in the Reserve force 
to surge and be part of the Active force, somebody on the 
Active force to be on the Reserve force. And we continue to 
work with the authorities that Congress has given us to support 
this.
    Additional authorities and discussions related to this, 
with DOPMA [Defense Officer Personnel Management Act] and ROPMA 
[Reserve Officer Personnel Management Act] reform and so forth, 
allow us to toggle, so to speak, before--between the two 
environments of the--what is mandated legislatively for Active 
and Reserve end strength.
    With regard to the focus, the laser focus on civilian skill 
set, we are launching this spring a requirement of our Navy 
Reserve sailors to be more detailed in their--in how they enter 
in a data reserve skill set database. We have given them the 
means and the communications we are just rolling out.
    This will at least allow us to have a repository of the 
reservists in their current skill sets. When we look at 
accessions, we have now been looking at the two ways we access. 
One is direct accessions with no prior service and accessions 
with prior service.
    In the Seabee area, the Construction Battalion force, we 
recognize that there are construction mechanics, there are 
individuals on the street doing this type of work that we need 
in our Navy Reserve. And we are in active discussions on how we 
lever those strengths and cross-rate those civilian 
qualifications, how they might merit the qualification that the 
Navy has. So we are very open, and we have just got to get our 
certifications right, and how we recognize that, but we are all 
in on civilian skills.
    Ms. Stefanik. Thank you for that. My last question relates 
to testimony a year ago in March of 2017 where it was stated, 
quote, To characterize where we are today, we would say it is 
the tale of two navies. The Navy's deployed units are 
operationally ready to respond to any challenge. Unfortunately, 
the status of units in installations back home in the United 
States paint a different picture. The strain is significant and 
growing. Do you still feel today, a year later, that it is the 
tale of two navies? And have you seen any positive change when 
it comes to the strain placed on the units and installations 
back at home?
    Admiral Lescher. Ma'am, I would say it still is a tale of 
two navies, absolutely. And the reason is because we haven't 
received the additional funding that was requested in the 
fiscal year 2018 bill. So as I alluded to earlier, we are still 
executing at that fiscal year 2017 level of funding.
    Now, there has been absolutely goodness that has occurred 
and progress is being made. And again, the fiscal year 2017 
request for additional appropriations was key to enabling ships 
to sail, pilots to fly, and critical shore infrastructure 
maintenance to take place. But to get traction, to accelerate 
readiness, to really start driving these output needles, we 
need the fiscal year 2018 bill enacted, and then this fiscal 
year 2019 bill will build on that, build on that progress we 
make.
    This concept earlier about it is a combination of resources 
and time that will really enable us, particularly in our 
industrial operations, the public shipyards, the fleet 
readiness centers, to drive that improvement, to hire the 
additional labor, to make the capital investment to drive the 
throughput increase that will really get us traction, as well 
as the increased funding for facility sustainment, restoration, 
and modernization in this 2018 bill. So a lot of goodness in 
the bill when enacted. We are absolutely positioned right now 
to move forward when that bill is enacted.
    Ms. Stefanik. Thank you for that. I yield back.
    Mr. Wilson. And thank you, Congresswoman Stefanik. As we 
conclude, I want to thank Commander Margaret Dean for her 
service, Tom Hawley. We have got professional staff that are 
doing such a great service. And we also will be providing 
questions for the record on readiness accounts. If there is no 
further business, we are adjourned.
    [Whereupon, at 4:29 p.m., the subcommittee was adjourned.]



      
=======================================================================



 
                            A P P E N D I X

                             March 20, 2018

=======================================================================

      



      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 20, 2018

=======================================================================

      

      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 20, 2018

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. WILSON

    Mr. Wilson. In the Navy's opening statement, readiness accounts are 
said to be funded to ``maximum executable levels.'' Is this the maximum 
executable within the public and private industrial base? Regarding 
available industry capacity, this committee has long expressed support 
for optimizing efficiencies and throughput of aircraft, including 
through competitive industry contracts for maintaining legacy F/A-18s. 
I understand that the Navy is taking 3 to 6 times longer than projected 
to provide engineering approvals and required sustainment funding under 
existing contracts. Can you explain why the Navy is dragging its feet 
on approving required repairs--and getting our tactical aircraft back 
on operations? Can you help the committee understand how the Navy 
defines maximum executable levels if clearly capacity remains within 
industry that will expedite readiness recovery?
    Admiral Lescher, Admiral Lewis, and Admiral McCollum. Program 
requirements for a fiscal year are assessed and updated at five 
distinct points in the Department's Planning, Programming, Budgeting 
and Execution System (PPBES). Total Fleet and System Command (SYSCOM) 
requirements are collected and determined by modeled and non-modeled 
processes during Planning and Programming. The total requirement is 
evaluated by the Navy in conjunction with stakeholders to determine if 
the entire requirement can be executed in the budget year, almost two 
years in the future. Factors considered include current public and 
private sector performance, updated pricing, the material condition and 
operating status (i.e. Mission Capable aircraft) of the force, 
utilization of the force, and the anticipated improvements in the 
readiness of the force based on funded and executed efforts.
    Executability is evaluated again by the Navy during the Budgeting 
phase of PPBES prior to submission to the Office of the Secretary of 
Defense (OSD), with the hindsight of an additional six to eight months 
of program execution and additional inputs from the Fleets and SYSCOMs 
with updated requirements. OSD provides a third review of the Navy's 
programs and prior to budget lock, the Department queries stakeholders 
for emergent requirements that were not previously evaluated. Items not 
funded in the President's Budget are considered for the CNO Unfunded 
Priority List.
    The result of this process and thorough evaluation determines the 
level to which readiness accounts will be funded relative to the 
requirement. Some accounts are funded to 100% of the requirement while 
others are funded to maximum executable levels. Maximum executable 
represents the maximum amount of funding that can be executed in a 
given fiscal year. The Navy would not be able to execute funding 
provided above that level. When it is submitted, the President's Budget 
represents the Navy's most current and best estimate of the aviation 
and ship readiness requirements.
    Prior to the start of the fiscal year, Fleets and System Commands 
(SYSCOMs) update their requirements and identify anticipated shortfalls 
and assets pending enactment of the annual appropriations bill. 
Execution of programs is tracked across the fiscal year and a Mid-Year 
Execution Review is conducted in April and May to support the OMNIBUS 
reprogramming action submitted to Congress in June. When conditions 
change, the Navy seeks additional funds to improve the readiness of the 
force.
    Specific to naval aviation recovery, the Navy is not dragging its 
feet. The backlog that previously existed and which necessitated the 
use of commercial depot contracts has been eliminated, with all 
aircraft inducted into workflow. Recent reductions in the overall 
requirement, enabled by combining depot events, and the steady increase 
in capacity at organic Fleet Readiness Centers, have reduced the 
requirement for follow-on commercial contracts for F/A-18A/B/C/D depot-
level maintenance, since the forecasted requirement can be covered 
within existing organic depot capacities. The Air Systems Support 
budget (OMN 1A4N), which funds Program Related Logistics for 
engineering dispositions, is funded to $876M in FY19, significantly 
more than the FY18 enacted amount of $701M and the FY17 executed amount 
of $655M. Work-In-Progress (WIP) for engineering instructions has been 
on an improving trend since March of 2017. Aircraft parts funded in 
Aircraft Procurement, Navy (APN) for the overall aviation spares 
account are funded to historically high levels with $1.8 billion in 
FY19 and $2.2 billion enacted in FY18. This funding coupled with the 
parts procured by the Working Capital Fund in 2017 that start to 
deliver in 2019, will provide the needed parts for our Sailors and 
Fleet Readiness Centers to return aircraft to a Mission Capable (MC) 
status. The Navy is using industry capacity to recover naval aviation 
readiness. The Navy has numerous Public-Private Partnerships (PPP) that 
support sustainment of aviation products. The Navy is also partnering 
with Boeing on the Service Life Modification (SLM) Program for F/A-18E/
F, the first major extensive sustainment program to deliver a Mission 
Capable (MC) aircraft with extended life. We will continue to assess 
the best use of resources to maximize the return of MC aircraft to the 
Fleet.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. BROWN
    Mr. Brown. As you already know, Navy Readiness is at an all-time 
low. A portion of readiness is the ability to upgrade existing weapon 
systems. The Navy has several organic prototyping capabilities that 
seemed to be under utilized due in part to the lack of knowledge the 
capabilities exist. Can you tell me the percentage of naval weapon 
system upgrades utilize internal Navy resources vice going straight to 
the OEM? Is there a detailed analysis of organic prototyping 
capabilities and any existing gaps that might prevent you from using 
them in the future?
    Admiral Lescher, Admiral Lewis, and Admiral McCollum. The 
Department of the Navy (DON) has been engaging the Naval Research and 
Development Establishment (NR&DE), comprised of the Naval Warfare and 
Systems Centers and Laboratory, organic capabilities through several 
pathways. As an innovation engine of ideas, Section 219 of the FY 2009 
National Defense Authorization Act (NDAA) has provided means to 
increase research funding within the NR&DE to develop technology 
solutions. The DON has been engaging the NR&DE through a series of 
technology explorations and Advanced Naval Technology Exercises (ANTX) 
to evaluate the NR&DE technology advancement and apply them to the 
Navy's and Marine Corps' pressing problems. These technology 
exploration/ANTX events included Smart Mining, Counter-Unmanned Aerial 
Systems, Urban 5th Generation Marine, Ship-to-Shore Maneuver, Unmanned 
Systems, and Advanced Combat System Technology. These efforts have 
provided the platform for the DON to more efficiently utilize the 
organic prototyping capabilities and focus the efforts on the DON's 
most pressing needs.

                                  [all]
</pre></body></html>
